TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Actions Are Needed to Improve the
                      Effectiveness of the Physical Security
                                    Program



                                          March 13, 2008

                              Reference Number: 2008-20-077




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 13, 2008


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Actions Are Needed to Improve the Effectiveness
                             of the Physical Security Program (Audit # 200720030)

 This report presents the results of our review to determine whether the Internal Revenue
 Service (IRS) has an effective program for managing physical security at its facilities. This
 review was included in the Treasury Inspector General for Tax Administration Fiscal Year 2008
 Annual Audit Plan and was part of the Information Systems Programs business unit’s statutory
 requirements to annually review the adequacy and security of IRS technology.

 Impact on the Taxpayer
 The IRS has an obligation to protect the Federal Government tax administration system, which
 includes employees, tax return information, and equipment. Although the IRS has established a
 means to regularly review physical security controls, management has not ensured that all
 physical security reviews were completed as required. As a result, potential security risks at
 various IRS facilities may not be identified and mitigated in a timely manner.

 Synopsis
 The IRS has developed physical security controls for protecting its employees and taxpayer
 information. These controls are effective for identifying risks, assessing compliance with
 controls, correcting weaknesses when identified, and reporting incidents.
 Risk assessments and compliance reviews are the primary tools used by the IRS to evaluate the
 adequacy of physical security controls. However, some risk assessments and compliance
 reviews have not been completed as required. As of October 25, 2007, IRS employees in the
 Physical Security and Emergency Preparedness office within the Agency-Wide Shared Services
               Actions Are Needed to Improve the Effectiveness of the Physical
                                      Security Program



organization still needed to complete 328 (65 percent) of the 508 required risk assessments and
293 (68 percent) of the 432 required compliance reviews.
In addition, the Physical Security and Emergency Preparedness office had not maintained
sufficient information to evaluate the overall IRS physical security program. Records of physical
security reviews were not properly maintained and, in some instances, records of these reviews
were either lost or misplaced. Also, reports used to monitor completion of the reviews were
incomplete, and annual summary reports did not contain cumulative results or statistics to
measure accomplishment. Due to these program weaknesses, the IRS cannot provide adequate
assurance that the necessary controls are in place to protect employees, facilities, and sensitive
taxpayer information. During this review, the Physical Security and Emergency Preparedness
office made progress in developing controls to better monitor the IRS physical security program.
Overall, the Physical Security and Emergency Preparedness office has been effective at
correcting physical security vulnerabilities identified during the risk assessment process.
However, due to limited funding, not all vulnerabilities identified could be corrected.
Management has taken appropriate steps to prioritize the necessary corrective actions and fund
them as the budget allows. Management has also taken sufficient corrective actions on
individual physical security incidents reported to the IRS Computer Security Incident Response
Center through the Situation Awareness and Management Center.

Recommendations
To meet the requirements for conducting risk assessments and compliance reviews, we
recommended that the Chief, Agency-Wide Shared Services, continue to increase monitoring of
physical security activities and analyze current processes and work products. This analysis
should focus on identifying methods for completing risk assessments and compliance reviews
more efficiently. To better evaluate the IRS physical security program, we recommended that
the Chief, Agency-Wide Shared Services, require the Physical Security and Emergency
Preparedness office to maintain all required records of physical security reviews and to develop
accurate, up-to-date management information with which to better evaluate the IRS physical
security program.

Response
Management agreed with our recommendations. The Director, Physical Security and Emergency
Preparedness, will increase monthly monitoring and analysis of physical security activities,
pursue methods to streamline the risk assessment and compliance review process, and issue
guidance requiring employees to forward completed and approved physical security review
reports to the Physical Security and Emergency Preparedness Program Office within 30 days of
management approval. The Director will elevate to management a list of overdue risk

                                                                                                   2
              Actions Are Needed to Improve the Effectiveness of the Physical
                                     Security Program



assessments and compliance reviews. Management’s complete response to the draft report is
included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                             3
                     Actions Are Needed to Improve the Effectiveness of the Physical
                                            Security Program




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Management Has Developed a Process for Evaluating Physical
          Security .........................................................................................................Page 3
                    Recommendations 1 and 2: ................................................Page 6

          Vulnerabilities Identified During Physical Security Reviews Are
          Properly Prioritized.......................................................................................Page 6
          Reported Security Incidents Have Been Sufficiently Addressed .................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Management’s Response to the Draft Report ......................Page 12
       Actions Are Needed to Improve the Effectiveness of the Physical
                              Security Program




                       Abbreviations

IRS              Internal Revenue Service
PSEP             Physical Security and Emergency Preparedness
                 Actions Are Needed to Improve the Effectiveness of the Physical
                                        Security Program




                                          Background

The Internal Revenue Service (IRS) has an obligation to protect the Federal Government tax
administration system, which includes employees, tax return information, and equipment. To
meet this obligation, it has developed and documented physical security controls for protecting
over 680 IRS facilities. Examples of physical security controls include perimeter fencing,
surveillance cameras, security guards, and locked entryways.
The terrorist attacks of September 11, 2001, increased security awareness and brought a shift in
the assessment of risks and vulnerabilities. The Treasury Inspector General for Tax
Administration has performed two physical security reviews since September 11, 2001.1 Both
reviews outlined a number of security weaknesses and concerns. Recently, the Government
Accountability Office recommended additional testing and monitoring of security alarms to
increase the functionality of the systems.2
An organization as large as the IRS must have an effective physical security program that
vigorously assesses risk, monitors compliance with controls, corrects weaknesses when they are
identified, and reports and investigates incidents promptly. Physical security program
responsibilities within the IRS were historically part of the Real Estate and Facilities
Management Office in the Agency-Wide Shared Services organization. In Fiscal Year 2004,
responsibility for physical security was moved to the Emergency Management and Physical
Security Division in the Mission Assurance and Security Services organization. This effort was
to bring together previously separate security functions and enable a consistent, unified approach
to physical and information security. On July 8, 2007, the IRS dissolved the Mission Assurance
and Security Services organization and transferred responsibility for managing physical security
to the Physical Security and Emergency Preparedness (PSEP) office in the Agency-Wide Shared
Services organization.
This review focused on management of the IRS’ physical security program. We performed the
review at the offices of the Chief, Agency-Wide Shared Services, and Chief, Cybersecurity, in
Washington, D.C., during the period April through October 2007. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We


1
  Physical Security Can Be Improved to Maximize Protection Against Unauthorized Access and Questionable Mail
(Reference Number 2003-20-004, dated October 2002) and Taxpayer Remittances Were Generally Safeguarded
Within the Cincinnati Submission Processing Site; However, Perimeter Security Needs Improvement (Reference
Number 2004-30-183, dated September 2004).
2
  GAO Management Report: Improvements Needed in IRS’s Internal Controls (GAO-06-543R, dated May 2006).
                                                                                                      Page 1
               Actions Are Needed to Improve the Effectiveness of the Physical
                                      Security Program



believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 2
               Actions Are Needed to Improve the Effectiveness of the Physical
                                      Security Program




                                 Results of Review

The process used by the PSEP office is generally effective for identifying risks, assessing
compliance with controls, correcting weaknesses when identified, and reporting incidents.
However, we did identify issues that need to be addressed to enable the IRS to provide more
assurance that employees and sensitive taxpayer data are properly protected.

Management Has Developed a Process for Evaluating Physical
Security
An effective physical security program requires that security controls be monitored regularly.
The PSEP office should consistently ensure that the controls in place comply with existing
guidance, align with evolving technologies, support the agency’s mission, and accomplish their
intended purpose. Risk assessments and compliance reviews are the primary tools used by the
PSEP office to evaluate the adequacy of physical security controls in the IRS.
Risk assessments identify internal and external threats. They follow a quantitative process to
determine which risks are acceptable or unacceptable. Compliance reviews assess the
implementation of security program standards and requirements. The PSEP office should
recommend the appropriate controls to reduce risk to an acceptable level.
We selected a judgmental sample of 50 IRS facilities to evaluate the adequacy of physical
security reviews conducted for these facilities. At the time of our review, risk assessments were
available for 47 of the 50 facilities and compliance reviews were available for 33 of the
50 facilities. Because the remaining 3 risk assessments and 17 compliance reviews could not be
located, we assumed they had not been conducted.
Generally, the 80 physical security reviews we analyzed were complete and conformed to IRS
policies and procedures. The risk assessments and compliance reviews were conducted using a
standardized form to assist the reviewers in covering all security aspects required in a facility’s
evaluation.

More management involvement is needed to enhance the review process
While the risk assessments and compliance reviews we evaluated were complete, the reviews
were not being completed in a timely manner, and sufficient information was not being
maintained by management to assess the process.




                                                                                              Page 3
                  Actions Are Needed to Improve the Effectiveness of the Physical
                                         Security Program



In October 2006, the Department of the Treasury increased the requirements for conducting risk
assessments for certain large facilities from every 3 years or 4 years to every 2 years.3 Figure 1
depicts the required frequency of both risk assessments and compliance reviews.
                Figure 1: Frequency of Required Physical Security Reviews

        Building          Number of Employees or                 Frequency of             Frequency of
     Security Level            Criticality                     Risk Assessments         Compliance Reviews
    Level I              10 or Fewer Employees                Every 4 Years             Every 3 Years
    Level II             11 - 150 Employees                   Every 4 Years             Every 3 Years
    Level III            151 - 450 Employees                  Every 3 Years             Every 3 Years
    Level IV             451 or More Employees                Every 2 Years             Every 2 or 3 Years4
    Level V              National Security Critical           Every 2 Years             Every 2 Years
                         Infrastructure Assets
Source: Department of the Treasury and IRS security requirements.

The PSEP office is experiencing delays in conducting required physical security reviews at
IRS facilities. To meet the new requirements, the PSEP office needed to complete 508 risk
assessments and 432 compliance reviews during the period January 1 through
December 31, 2007. As of October 25, 2007, the PSEP office still needed to complete
328 (65 percent) of the 508 risk assessments and 293 (68 percent) of the 432 compliance
reviews. It is unlikely that all necessary security reviews will be completed according to the
required schedule.
To address the backlog in conducting security reviews and determine the amount of time staff
expended on physical security activities, the PSEP office requested that a workload analysis be
performed. The analysis, conducted in March 2007, was based on the average physical security
workload for 1 year. It provided useful information by identifying the time required to conduct a
risk assessment and a compliance review and the number of employees needed to carry out the
responsibilities of the program, considering the change in requirements. Management also
requested that all PSEP office employees start tracking their time for various tasks beginning in
Fiscal Year 2008.
These are positive steps that may help management determine the proper staffing level for the
PSEP office. However, before the PSEP office requests more staff, we believe actions should be
taken to evaluate the efficiency of the security review process. For example, risk assessments


3
  Department of the Treasury Security Manual, TDP 15-71, dated October 10, 2006.
4
  Compliance reviews should be conducted at least every 3 years for all Level IV IRS facilities. Compliance
reviews for Level IV Processing Centers should be conducted every 2 years.
                                                                                                              Page 4
               Actions Are Needed to Improve the Effectiveness of the Physical
                                      Security Program



outlining program improvements recently implemented. The PSEP office is now preparing
monthly status reports showing the percentages of required security reviews that have been
completed. In addition, it now provides quarterly statistics for Business Performance Reviews to
the Deputy Commissioner for Operations Support.
The PSEP office is also working to develop a comprehensive performance metrics database to be
deployed in Fiscal Year 2008. This database will allow employees to directly load progress data
about the completion of risk assessments and compliance reviews for monthly rollup reporting.

Recommendations
The Chief, Agency-Wide Shared Services, should:
Recommendation 1: Continue to increase monitoring of physical security activities,
specifically the time expended on compliance reviews and risk assessments, and analyze the
current processes and work products. This analysis should focus on identifying methods for
completing risk assessments and compliance reviews more efficiently.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, PSEP, will increase monthly monitoring and analysis to ensure elevation to
       management of each risk assessment and compliance review that is scheduled and has not
       been performed. Software will be upgraded to assist security analysts with performing
       both reviews and ensure that all report requirements are current.
Recommendation 2: Require the PSEP office to maintain all required records of physical
security reviews and to develop accurate, up-to-date management information with which to
better evaluate the IRS physical security program.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, PSEP, will issue guidance to all PSEP office employees directing them to
       forward all completed and approved risk assessment and compliance review reports to the
       PSEP Program Office within 30 days of management approval. The Director will
       increase monitoring to ensure that monthly reporting of overdue and currently scheduled
       reviews is site specific.

Vulnerabilities Identified During Physical Security Reviews Are
Properly Prioritized
Although the PSEP office has identified corrective actions to address all physical security
vulnerabilities identified during risk assessments, it has not implemented many because of
limited funding. The PSEP office has taken appropriate steps to prioritize the necessary
corrective actions and fund them as the budget allows.


                                                                                              Page 6
               Actions Are Needed to Improve the Effectiveness of the Physical
                                      Security Program



The PSEP office prepared a Master Fiscal Year 2007 Prioritized Proposed Security Project
Listing showing all corrective actions and projected costs. According to the Master Listing, the
projected costs of the 119 vulnerabilities that need funding totaled $3,750,000. The PSEP office
reported that it is unable to fund corrective actions totaling more than $1,000,000 for 31 (26
percent) of the 119 security vulnerabilities.
However, several of the unfunded items are upgrades of existing equipment, such as access card
readers that are scheduled to be replaced in the near future as a result of Homeland Security
Policy Directive 12 (HSPD-12), Policy for a Common Identification Standard for Federal
Employees and Contractors. This Directive requires implementation of a new standardized
process for issuing identification badges that is designed to enhance security, reduce identity
fraud, and protect the personal privacy of those issued Federal Government identification badges.
Management made the decision to withhold funding for these actions because a coordinated
approach is needed to ensure that the Directive is implemented consistently throughout the IRS.

Reported Security Incidents Have Been Sufficiently Addressed
IRS employees and managers are responsible for reporting individual physical security incidents
to the IRS Computer Security Incident Response Center through the Situation Awareness and
Management Center, which serves as the IRS’ central communications and monitoring facility
and is available 24 hours a day, 7 days a week. The incidents are reviewed by PSEP office
managers, who should take necessary followup actions on each incident reported. The types of
incidents that must be reported include:
       •   Bomb threats                    •   Terrorist/enemy attacks
       •   Explosions                      •   Hazardous materials
       •   Demonstrations                  •   Burglaries
       •   Civil disturbances              •   Robberies
       •   Fire                            •   Thefts
       •   Utility disruption or failure   •   Destruction or loss of significant documents
       •   Sabotage                        •   Receipt of information of terrorist activities
       •   Natural disasters               •   Threats against or assaults upon IRS employees
       •   Unusual weather conditions
Our analysis of the incident reports for the period April 1, 2006, through March 31, 2007,
identified 1,136 incidents reported to the Computer Security Incident Response Center. Of these,
879 (77 percent) were due to an act of nature or facility/equipment. Only 257 (23 percent) of the
incidents reported would possibly require followup action and analysis by the PSEP office.
Figure 2 presents an analysis of the types of incidents reported.




                                                                                                Page 7
               Actions Are Needed to Improve the Effectiveness of the Physical
                                      Security Program



                      Figure 2: Types of Incidents Reported to the
                      Computer Security Incident Response Center

                  Type of Incident Reported                     Number            Percentage
       Act of nature                                               514                45%
       Facility/equipment                                          365                32%
       Suspicious package                                           84                 7%
       Personnel/taxpayer                                           61                 5%
       Hazardous material                                           23                 2%
       Bomb threat                                                  19                 2%
       Loss or theft of non-Information Technology                  19                 2%
       property
       Suspicious activity                                         18                  2%
       Threats (personnel)                                         18                  2%
       Other                                                        9                  1%
       Threats against facilities                                   5             Less than 1%
       Tax data/tax processing equipment                            1             Less than 1%
       Total                                                      1,136
       Source: Situation Awareness and Management Center report “Physical Incidents by Type and
       Location,” dated March 31, 2007.

We reviewed each of the 257 incidents that might require corrective actions to physical security,
such as lost badges, missing or damaged equipment, or broken windows and doors. From these, we
sampled 27 of the incidents and contacted the respective managers. We confirmed that sufficient
corrective actions had been taken in each case.




                                                                                                  Page 8
                  Actions Are Needed to Improve the Effectiveness of the Physical
                                         Security Program



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has an effective program
for managing physical security at its facilities. To accomplish our objective, we:
I.       Determined whether required physical security reviews were completed at IRS facilities
         in accordance with Federal Government standards and IRS guidance.
         A. Identified and reviewed updated policies on physical security and data protection
            requirements and standards.
         B. Interviewed the Program Director in the PSEP office within the Agency-Wide Shared
            Services organization to determine the processes and standard operating procedures
            used for managing the IRS’ physical security program.
         C. Reviewed IRS physical security Area Office1 records for Areas 1 and 2.
         D. Selected a judgmental sample of 50 IRS facilities in Areas 1 and 2 from a population
            of 680 offices, reviewed documentation of risk assessments and compliance reviews
            conducted for the 50 facilities, and determined whether the assessments and reviews
            were completed as required. We used a judgmental sample because we were not
            going to project the results to the population.
II.      Determined whether physical security incidents identified at IRS facilities had been
         sufficiently addressed.
         A. Identified and evaluated the efforts taken to address employee safety and physical
            security.
         B. Determined whether the PSEP office was effectively monitoring the IRS physical
            security program at the national level.
         C. Identified all physical security and employee incidents reported to the Computer
            Security Incident Response Center by type and location for the period April 1, 2006,
            through March 31, 2007. We identified 257 incidents that indicated corrective
            actions were required to improve physical security and selected a judgmental sample
            of 27 to confirm implementation of corrective actions. We used a judgmental sample
            because we were not going to project the results to the population.


1
 A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                             Page 9
              Actions Are Needed to Improve the Effectiveness of the Physical
                                     Security Program



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Michelle Griffin, Audit Manager
David Brown, Lead Auditor
Cari Fogle, Senior Auditor
George Franklin, Senior Auditor




                                                                                     Page 10
              Actions Are Needed to Improve the Effectiveness of the Physical
                                     Security Program



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Information Officer OS:CIO
Director, Program Oversight OS:CIO:SM:PO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Controls OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief Information Officer OS:CIO




                                                                       Page 11
   Actions Are Needed to Improve the Effectiveness of the Physical
                          Security Program



                                                     Appendix IV

Management’s Response to the Draft Report




                                                            Page 12
Actions Are Needed to Improve the Effectiveness of the Physical
                       Security Program




                                                         Page 13
Actions Are Needed to Improve the Effectiveness of the Physical
                       Security Program




                                                         Page 14
